No.

IN THE SUPREME COURT OF THE UNITED STATES

RICHARD S. BERRY, PETITIONER
vs.
STATE BAR OF ARIZONA, RESPONDENT

CERTIFICATE OF SERVICE OF
PETITION FOR WRIT OF CERTIORARI
Comes now the undersigned under pain of perjury and hereby
certifies pursuant to the rules of this court that two copies of this Petition were
mailed by first class mail to the following as attorney of record for respondent
bar.
James Lee
STATE BAR
4201 N. 24th St, Ste, Ste. 100.
Phoenix, AZ 85016

received
NOV - ‘t 2020
85®I8S»bS®

